Pension Benefit Guaranty Corporation
     Office of Inspector General




 Semiannual Report to the Congress
 October 1, 2002 – March 31, 2003
                       Pension Benefit Guaranty Corporation
                                                        Office of Inspector General
                                       1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                                  April 30, 2003

The Honorable Elaine L. Chao
Chairman, PBGC Board of Directors


I am pleased to submit this twenty-eighth Semiannual Report to the Congress. The report
summarizes the major activities and accomplishments of the Office of Inspector General for the
six-month period ending March 31, 2003.

On January 13, 2003, I became the second Inspector General of the Pension Benefit Guaranty
Corporation. I intend to enhance the value of the Office of Inspector General by being an
independent and objective voice that provides PBGC with critical information for improving
operations. I also pledge to keep Congress, the Board of Directors and management fully
informed of our work and alerted to areas where PBGC could be more economical and efficient.

I have begun several initiatives since I arrived in January, including one to work with
management to improve the Corporation’s policy for resolution and follow-up on audit
recommendations. The Chief Financial Officer and I jointly sponsored a team that is tasked with
developing a corporate policy to encourage mutual agreement on audit recommendations,
improving accountability for implementing action plans, and fostering effective communication
and a cooperative spirit. The work of the team has already resulted in major improvements in
resolving differences on audits.

This past year, PBGC coped with an unprecedented number of plan terminations, and is facing
significant challenges in the coming years. The OIG is committed to supporting PBGC’s efforts to
promote and protect pensions through competence, customer service and sound business
practices. At my request, management identified major challenges that would benefit from audit.
We plan to help PBGC deal with these challenges by focusing our work on the critical issues that
are important to Congress, the Board of Directors and management.

Our work this reporting period has resulted in significant operational benefit to PBGC. Our Office
issued six (6) reports in the audit area, including the Audit of the FY 2002 Financial Statements,
and two related audits. We also continued our focus on information technology security issues,
which included internal and external network penetration testing.

In the investigative area, we opened ten (10) and closed thirteen (13) investigations. Of the
investigations we closed this period, four involved pension fraud and one resulted in the removal
of a contractor employee who was working without a work permit and visa. We are investigating
the diversion of a premium payment check to a foreign bank, and recovered premiums of over
$250,000 based on the investigation.

Finally, the real value of audits and investigations is the corrective actions that are implemented
by management. I would like to thank Executive Director Kandarian and the rest of his
management team for their cooperation and responsiveness to our work. I also want to commend
all OIG employees for their accomplishments, professionalism and dedication.
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                 PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY

This is the twenty-eighth semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period October 1, 2002 through March 31, 2003. Our efforts were
directed toward performing audits, inspections, and evaluations of the Corporation's programs
and operations; conducting several large and complex investigations; and providing technical
assistance and advice on Corporate programs.

In the audit area, we issued six (6) reports, including:

   •   FY 2002 Financial Statement Audit (see page 2);
   •   Two reports that support the U.S. Treasury’s preparation of United States
       Government consolidated financial statements (see page 3); and
   •   Two reports relating to internal and external network penetration testing (see
       page 4).


In the investigative area, we opened ten (10) new investigative cases during the reporting
period and closed thirteen (13) cases.         Among the significant investigative work
conducted this period, we:

   •   Recovered $254,800 lost premium revenue for PBGC from a premium payment
       check that was diverted into a foreign bank (see page 9);
   •   Found that a contract employee whose work permit and visa had long expired
       was working at PBGC, resulting in his removal (see page 9);
   •   Closed five cases related to pension benefit fraud (see page 9), among which
       we:
       ¾ Referred to PBGC for collection action our finding that a bank had
           improperly permitted a deceased participant’s son to access his bank
           account and withdrawn pension payments made after the participant’s
           death;
       ¾ Referred for prosecution a former spouse who had diverted her husband’s
           lump sum pension check; and
       ¾ Found that a participant falsely stated that he had not received a lump sum
           benefit payment.


During the period, we reviewed proposed rules concerning benefit payments to
participants when their pension plan terminates. The OIG initiated and is participating
in several new corporate-wide team activities to improve PBGC, including:

   •   The Inspector General, Chief Financial Officer and General Counsel are considering
       PBGC corporate governance issues;
   •   The Inspector General and Chief Financial Officer are jointly-sponsoring a team, in
       which OIG auditors are participating, to develop new audit resolution and follow-up
       policy; and
   •   An OIG auditor is participating as a consulting, non-voting member of a team that is
       conducting a self-assessment using the Performance Assessment Review Tool.




MARCH 2003
                                                 i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                  PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS
               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY .................................................................               i

               TABLE OF CONTENTS ....................................................................            ii

               INTRODUCTION ..............................................................................       1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ........................................................................         2

                         Overview
                         Audits and Evaluations
                         Audit Follow-up and Resolution
                         Access to Information
                         PBGC Management - Inspector General Disagreements

               INVESTIGATORY ACTIVITIES .......................................................                  7

                         Overview
                         Activity This Period
                         Significant Investigations

               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                        10

                         Review of Proposed Statutory and Regulatory Changes
                         OIG and Agency Consultation
                         Congressional Requests

               APPENDIX ......................................................................................   11

                         Cross-Reference to Reporting Requirements of the
                            Inspector General Act
                         Reports Issued With Questioned Costs
                         Reports Issued With Recommendations That Funds
                             Be Put to Better Use
                         Open Recommendations

               GLOSSARY ......................................................................................   19




MARCH 2003
                                                            ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION
`

INTRODUCTION
THE PENSION BENEFIT GUARANTY CORPORATION
        The Pension Benefit Guaranty Corporation (PBGC or Corporation) was
        established under Title IV of the Employee Retirement Income Security Act of
        1974 (ERISA), as amended, 5 U.S.C. § 1301-1461, as a self-financing, wholly
        owned federal government corporation to administer the pension insurance
        program. ERISA requires that PBGC: (1) encourage the continuation and
        maintenance of voluntary private pension plans; (2) provide for the timely and
        uninterrupted payment of pension benefits to participants and beneficiaries; and
        (3) maintain premiums at the lowest level consistent with carrying out PBGC's
        obligations.

        For about 44 million Americans, the PBGC provides assurance that their
        retirement benefits are safe now and for the future. The PBGC protects the
        pensions of participants in certain defined benefit pension plans, i.e., plans that
        promise to pay definitely determinable retirement benefits. Such defined benefit
        pension plans may be sponsored individually or jointly by employers and by
        unions. Currently, there are approximately 345,000 participants receiving
        benefit payments of approximately $1.5 billion from PBGC. Additionally, in its
        fiscal year 2002 financial statement, the PBGC reported that it has assets of
        about $26.4 billion and liabilities of $29.9 billion.

THE OFFICE OF INSPECTOR GENERAL
       One of the goals of the Office of Inspector General (OIG) is to assist the PBGC in
       operating more efficiently and effectively by identifying ways to improve PBGC's
       programs. To accomplish this goal, the OIG conducts agency audits,
       inspections, and investigations, and makes recommendations to and consults
       with PBGC management on findings and systemic issues. In addition, the OIG
       is required statutorily to inform the agency head of fraud and other serious
       problems, abuses, and deficiencies relating to the programs and operations
       administered or financed by the PBGC, recommend corrective action concerning
       such problems, and report on the progress made in implementing corrective
       actions.

       There was a major change in the OIG during this period. A new Inspector
       General was named to lead the organization. Our OIG staff consists of twelve
       (12) employees, of which two are investigators and one is an administrative
       assistant.

       During this reporting period, the OIG initiated a project to modernize its
       information technology infrastructure. This project will enable the OIG to
       implement a mobile computing environment that provides independence,
       security, flexibility, and the access required to provide timely, high quality
       products.

       The Chief Financial Officers Act requires that a government corporation's
       financial statements be audited by the Inspector General, unless preempted by
       the General Accounting Office (GAO). The OIG contracted with an Independent
       Public Accountant (IPA) to perform the audit of the Corporation’s FY 2002
       financial statements.
________________________________________________________________________________________________
MARCH 2003                                                                              PAGE 1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION



AUDIT ACTIVITIES
OVERVIEW
        The OIG provides independent analyses to management on a full range of
        PBGC's operations including programs, activities, functions, and funding. The
        OIG has full discretion in establishing audit objectives, plans, and priorities.
        During this reporting period, the OIG issued six (6) reports to help PBGC reduce
        costs and strengthen management controls. Below is a summary of reports; a
        matrix of the reports and results is at page 6. Our audits comply with GAO’s
        Government Auditing Standards, while the inspections comply with Quality
        Standards for Inspections published by the President's Council on Integrity and
        Efficiency.

AUDITS AND EVALUATION REPORTS
        CORPORATION’S FISCAL YEARS 2002 AND
        2001 FINANCIAL STATEMENTS
        (2003-3/23168-1 and 2003-3/23168-2)

        The OIG issued a report with three opinions related to the audit of PBGC’s
        financial statements of the Single-Employer Program Fund and the
        Multiemployer Program Fund for the fiscal years (FY) ended September 30, 2002
        and September 30, 2001 (see 2002-3/23168-2). PricewaterhouseCoopers, LLP
        performed the audit under the general guidance of the OIG.

        ♦    An unqualified opinion on the financial statements opines that the financial
             statements fairly present, in all material respects: (1) the financial position
             of the Single-Employer and Multiemployer Program Funds as of September
             30, 2002 and 2001, and (2) the results of their operations and cash flows for
             the years then ended in conformity with generally accepted accounting
             principles.

        ♦    The report on internal control determined that PBGC had made some
             progress in addressing control issues previously reported. Two reportable
             conditions were carried forward from prior financial statement audits.
             PBGC needs to: (1) continue in efforts to integrate its financial management
             systems and improve its systems development life cycle methodology; and
             (2) complete and fully test its plan for maintaining continuity of operations.

             In addition, the FY 2002 audit work identified three other reportable
             conditions. PBGC needs to: (3) continue its effort to implement an effective
             fully integrated and functional enterprise-wide security program; (4)
             improve its controls over the identification and measurement of estimated
             liabilities for probable terminations; and, (5) enhance controls over
             measurement of asset values for non-commingled assets of trusteed plans,
             plans pending trusteeship and plans for probable termination.

         ♦   The report on compliance with applicable laws and regulations states that,
             with respect to items tested, no instance of non-compliance was disclosed.



________________________________________________________________________________________________
MARCH 2003                                                                              PAGE 2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION

        In addition, the OIG issued a single-page unqualified opinion report that PBGC
        incorporated into its FY 2002 Annual Report (2003-3/23168-1).

        INDEPENDENT ACCOUNTANT’S REPORT ON
        APPLYING AGREED-UPON PROCEDURES
        (2003-4/23168-3)

        The General Accounting Office (GAO) requested the OIG to perform specific
        procedures enumerated by the U.S. Treasury related to PBGC’s submission of its
        Federal Agencies Centralized Trial-Balance System (FACTS) transmission, which
        included the Adjusted Trial Balance for the revolving and trust funds and
        selected footnote data. These procedures are performed to assist in the
        preparation of the consolidated United States Government financial statements
        for the year ended September 30, 2002.

        INDEPENDENT ACCOUNTANT’S REPORT ON
        APPLYING AGREED-UPON PROCEDURES
        FOR CFO REPRESENTATIONS FOR FEDERAL
        INTRAGOVERNMENTAL ACTIVITY AND BALANCES
        (2003-5/23168-4)

        GAO requested the OIG to perform specific procedures enumerated by the U.S.
        Treasury and related to PBGC’s submission of its CFO representations for
        Federal Intragovernmental Activity and Balances transmission. The agreed-
        upon procedures were performed to assist with the accounting for and
        eliminating intragovernmental activity and balances in the preparation of agency
        and government-wide financial statements and reports. These procedures are
        performed to assist in the preparation of the consolidated United States
        Government financial statements for the year ended September 30, 2002.

        NETWORK PENETRATION TESTING (Internal)
        (2002-14/23169)

        We engaged PricewaterhouseCoopers (PwC) to perform penetration testing of
        PBGC’s internal computing resources, including tests for compliance of its
        selected security policies. The internal vulnerability assessment identified both
        security strengths and weaknesses. Because this report contains sensitive data
        its release is restricted.

        NETWORK PENETRATION TESTING (External)
        (2003-1/23169-2)

        We engaged PricewaterhouseCoopers (PwC) to perform penetration testing of
        PBGC’s external computing resources. The external vulnerability assessment
        identified both security strengths and weaknesses. One of the strengths is that
        we did not gain access to the internal network systems through the internet.
        however, because this report contains sensitive data its release is restricted.




________________________________________________________________________________________________
MARCH 2003                                                                              PAGE 3
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION


OTHER AUDIT ACTIVITY
        FINANCIAL STATEMENT AUDIT

        A major Corporate endeavor is preparation of its Annual Report, which includes
        the financial statements and the auditor’s reports. The timetable for completing
        the Fiscal Year 2002 financial statement audit was accelerated to January 31,
        2003. At PBGC, this meant that the audit would have to be completed two
        months sooner than in prior years. This required both PBGC and the OIG to take
        a fresh look at the way the financial statement information was prepared and the
        audit was conducted.

        For the Fiscal Year 2003 financial statement audit, the Executive Director
        mandated a December 31, 2003 reporting requirement, one month earlier than
        the OMB-requirement. To meet this deadline, we are again reevaluating our
        audit approach and trying to identify audit work that could be completed earlier
        in the process. We will be negotiating a new delivery schedule with PBGC for
        audit deliverables. PBGC and the OIG will work collaboratively to resolve issues
        as they arise. We have also made suggestions to the Corporation regarding
        adjustments to processes that would facilitate meeting this year’s, as well as
        future, accelerated reporting requirements.

AUDIT FOLLOW-UP AND RESOLUTION
        The audit follow-up system at PBGC is integral to effective management and is a
        shared responsibility of PBGC management and the OIG. The OIG’s audit
        follow-up system documents and reports on management's actions to encourage
        prompt resolution of audit recommendations. We follow the Office of
        Management and Budget (OMB) Circular A-50 guidance that audit
        recommendations be resolved within six (6) months of issuance. An audit
        recommendation is resolved when agency management and the OIG reach
        agreement on firm plans of action to correct reported weaknesses. Resolution
        does not mean an audit recommendation is closed. The OIG closes audit
        recommendations only when it determines that corrective actions have been
        completed by the agency.

        In our Semiannual Listing of Audit Recommendations (OIG Report 2003-4/32107)
        we reported that there were sixty-eight (68) open audit recommendations, of
        which forty-four (44) were outstanding audit recommendations from prior
        reporting periods. The agency reviewed and reported to the OIG on their actions
        to address the recommendations. During this reporting period, the OIG and
        PBGC Management met and resolved issues regarding closure. The OIG
        concurred that management had presented sufficient evidence to close twenty-
        six (26) audit recommendations. Forty-two(42) audit recommendations remain
        open. A number of recommendations remain open pending review during this
        year’s financial statement audit. We continue to meet with departmental
        officials to discuss the outstanding recommendations and provide guidance on
        actions necessary to close them.




________________________________________________________________________________________________
MARCH 2003                                                                              PAGE 4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION


ACCESS TO INFORMATION
        Under the Inspectors General Act, the Inspector General is to have unfettered
        access to all agency records, information, or assistance when engaged in an
        investigation or audit. Whenever access to requested records, information, or
        assistance is unreasonably refused or not provided, the Inspector General must
        promptly report the denial to the agency head.

        During this six-month reporting period, the Inspector General’s access to
        information was not restricted.

PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
        Semiannually, the OIG reports on the status of all unresolved audit reports that
        are more than six months old.        These reports include: (1) reason(s) for
        unresolved reports and a timetable for their resolution; (2) actions taken or
        proposed on all unresolved reports or recommendations; and (3) age of
        unresolved recommendations.       For this reporting period, there were no
        unresolved audit reports in which PBGC management decisions are pending.
        As reported in prior periods, PBGC has disagreed with a recommendation
        contained in the Fiscal Year 1998 Financial Statement – Management Letter (99-
        8/23132-3). PBGC management commented on the Report and concurred “with
        its recommendations except for one item.”           PBGC disagreed with a
        recommendation which states that PBGC should “modify existing Insurance
        Operations Department (IOD) procedures to require retention of source
        documentation generated as a result of the participant data audits and used to
        calculate benefit payments and value the PVFB (Present Value of Future
        Benefits) liability.”

        We are aggressively working with PBGC management to bring this issue to
        resolution.




________________________________________________________________________________________________
MARCH 2003                                                                              PAGE 5
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                          PENSION BENEFIT GUARANTY CORPORATION



                                                  INSPECTOR GENERAL REPORTS*
                                                  For The Six-month Period Ending
                                                          MARCH 31, 2003

                                                                     DOLLAR            DOLLAR             DOLLAR          NUMBER OF
                                                                    VALUE OF          VALUE OF           VALUE OF       NON-MONETARY
     REPORT                                          DATE          QUESTIONED          BETTER          UNSUPPORTED    RECOMMENDATIONS
     NUMBER               REPORT TITLE              ISSUED           COSTS           USED FUNDS           COSTS
Audits

2003-2/23168-1     Audit of Pension Benefit       1/30/2003
                   Corporation Fiscal Years
                   2002 and 2001 Financial
                   Statements (Single Page
                   Report)
2003-3/23168-2     Audit of Pension Benefit       1/30/2003
                   Corporation Fiscal Years
                   2002 and 2001 Financial
                   Statements                                                                                                 25

Evaluations

2002-14/23169-1    Network Penetration Testing   11/13/2002
                   (Internal) (Restricted)
2003-1/23169-2     Network Penetration Testing   12/20/2002
                   (External)(Restricted)
2003-4/32107       Semiannual Listing of Audit    1/31/2003
                   Recommendations
2003-5/23168-3     Independent Accountant’s        2/6/2003
                   Report on Applying Agreed
                   Upon Procedures for FACTS
                   Data
2003-6/23168-4     Independent Accountant’s        2/6/2003
                   Report on Applying Agreed
                   Upon Procedures For CFO
                   Representations for Federal
                   Intragovernmental Activity
                   and Balances
* This statistical information is required by section 5 (a)(6) of the Inspector General Act of 1978, as amended.




MARCH 2003                                                                                                                         PAGE 6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES
OVERVIEW
       The Inspector General is authorized to receive and investigate complaints from
       PBGC employees, the public, and other sources concerning violations of law,
       rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
       a substantial and specific danger to the public health and safety. Individuals
       may disclose information or make complaints to the Inspector General through
       the OIG "Hotline." (See announcement on back cover page.) The Inspector
       General has a policy to protect the legal rights of whistleblowers and
       complainants. At all times, the Inspector General takes reasonable precautions
       not to disclose the identity of the complainant without that person's consent.

       When we receive an allegation, we review it to determine its sensitivity and need
       for immediate OIG investigation, or whether it can be referred to the agency for
       review and corrective action. Allegations designated as priority, e.g., those
       involving criminal violations and sensitive administrative matters, receive
       immediate attention. These investigations use more time and resources, often
       requiring a team approach. To meet these challenges, the OIG has undertaken
       many strategies to responsibly investigate allegations that are brought to us,
       including hiring former federal investigators as contractors. Even with these
       additional contract resources, we have had to cease investigation activities and
       close some cases administratively. Though we have systematically reduced our
       investigative caseload, our limited investigative staff causes an inability to
       investigate allegations timely, which is unacceptable to us.

ACTIVITY THIS PERIOD
       The OIG opened ten (10) investigative cases from complaints or allegations we
       received, and closed thirteen (13) cases during the reporting period. As of March
       31, 2003, forty-three (43) cases remain open (see the summary of investigative
       activities at page 9).

       We issued our third Fraud Alert to PBGC employees and contractors notifying
       them of a rash of credit card thefts and ways to protect themselves and help
       prevent thefts from occurring.


       OIG HOTLINE

       The OIG operates a separate "1-800" hotline telephone number and a Hotline
       post office box. The Hotline telephone is answered by an investigative staff
       assistant for a two-hour period, Monday through Friday; at all other times there
       is a message that provides information about the Hotline service.

       During this period, we received four (4) Hotline inquiries. One of the four
       contacts was a first-time inquiry relating to pension benefit questions, and was
       referred to the agency for action. The OIG provided customer assistance to three

MARCH 2003                                                                     PAGE 7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION


       (3) individuals who contacted our Hotline. We did not open any cases from our
       Hotline contacts this period.

       SIGNIFICANT INVESTIGATIONS

       THEFT OF PREMIUM PAYMENT CHECK

       The diversion of a pension plan sponsor’s premium payment of more than
       $250,000 was reported to the OIG for investigation. The check intended for
       PBGC was presented for payment to a foreign bank. Because the bank
       questioned the signature, it was holding the funds in escrow. The OIG
       investigator recovered the funds from the pension plan sponsor, thereby
       avoiding the international legal process to claim the funds from the foreign
       bank. We are continuing to work with other law enforcement agencies to track
       the perpetrator.


       ILLEGAL WORKER REMOVED

       Through investigation, we discovered that a contractor was working at PBGC
       long after his work permit and visa had expired. PBGC took immediate action to
       have the illegal worker removed from PBGC’s contract.


       PENSION FRAUD CASES

       During this period, we closed five cases that raised issues of fraud relating to
       pension plans and benefits. Our investigations resulted in the following:

       ¾   Referral to PBGC to seek restitution from a bank that had improperly
           permitted the deceased participant’s son to access the participant’s account
           and continue receiving his father’s benefit.

       ¾   Notice to PBGC not to replace an alleged missing benefit check because the
           participant had falsely represented to PBGC that he had not received his
           lump sum pension benefit.

       ¾   Referral for prosecution of a former spouse who had diverted her husband’s
           lump sum pension benefit.

       ¾   Administrative closing of two other cases, one because the fraud occurred
           long before it was reported to the OIG and we could not seek prosecution,
           and another because there was no evidence to support a claim that the
           waiver of spousal benefit was given under duress.




MARCH 2003                                                                     PAGE 8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION BENEFIT GUARANTY CORPORATION




                           SUMMARY OF INVESTIGATIVE ACTIVITIES
                              For The Six-month Period Ending
                                      MARCH 31, 2003


CASE LOAD

                   Pending beginning of period                                              46
                   Opened this period**                                                     10
                   Closed this period                                                       13
                   Pending end of period ***                                                43


WRONGDOING ALLEGED (CASES OPENED)

                   Fraud, Waste & Abuse                                                       4
                   Wrongdoing                                                                 1
                   Improprieties Relating to Pension Benefits                                 5


RESULTS OF CASES CLOSED

                   Allegation disproved or not substantiated                                  4
                   Removal from position                                                      1
                   Referred to agency for collection activity                                 1
                   Theft/Perpetrator Unidentified                                             1
                   Matters Referred for Prosecution                                           1
                        Prosecutions/Convictions                                              0
                   Administrative Closing                                                     5



RESTITUTIONS AND RECOVERIES                                                           $254,800



HOTLINE AND MAIL INQUIRIES

                   Received this period                                                       4

                            First time caller referrals to agency                   1
                            Mail referrals to agency                                0
                            OIG Customer Assistance                                 3
                            Cases opened                                            0




** Of the ten new cases opened this period, none resulted from Hotline and mail inquiries.
*** Thirty-four of the forty-three investigative cases that are open are from prior reporting periods.


MARCH 2003                                                                                               PAGE 9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES

REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

       To comply with the IG Act, the OIG Legal Counsel is notified by the Office of the
       General Counsel when the agency is proposing legislative and regulatory
       changes. During this period, we reviewed and commented on proposed rules
       concerning benefit payments to participants when their pension plan
       terminates.

OIG AND AGENCY CONSULTATION

       The OIG engaged in several activities this period that included coordination and
       consultation with agency officials to improve agency operations.

       ♦   The Inspector General is participating on a team with the CFO and the
           General Counsel to consider PBGC corporate governance issues.

       ♦   OIG auditors are participating on a multi-departmental agency team, jointly
           sponsored by the Inspector General and the CFO, to develop an audit
           resolution and follow-up policy to address accountability for audit response,
           implementation of corrective actions, effective communication between the
           OIG and PBGC, and foster cooperation to improve agency operations.

       ♦   We are participating as a consulting, non-voting member of an agency team
           that is conducting a self-assessment using OMB’s Performance Assessment
           Review Tool.

       ♦   We continue to participate in a PBGC multi-departmental team that
           addresses financial management systems integration.

       ♦   We continue to provide consultation services to PBGC on its efforts by
           serving as a non-voting member of its Premium Redesign Team.

       ♦   The Deputy Inspector General is serving as a resource to PBGC’s Accuracy of
           Benefits Team.



CONGRESSIONAL REQUESTS

       We continue to work with the United States Senate’s Special Committee on
       Aging and the Committee on Small Business and Entrepeneurship on several
       issues impacting on the accuracy of PBGC’s calculation of individual
       participants’ benefits, and PBGC’s budgeting for and funding of its operations.



MARCH 2003                                                                     PAGE 10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                PENSION BENEFIT GUARANTY CORPORATION




APPENDIX

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.



  Inspector General
    Act Reference      Reporting Requirements                                      Page


Section 4 (a) (2)      Review of legislation and regulations.                       10

Section 5 (a) (1)      Significant problems, abuses, and deficiencies.             2 – 3,
                                                                                     6

Section 5 (a) (2)      Recommendations with respect to significant problems,       2 – 3,
                       abuses, and deficiencies.                                     6

Section 5 (a) (3)      Prior significant recommendations on which corrective         4
                       actions has not been completed.                             15-19

Section 5 (a) (4)      Matters referred to prosecutive authorities.                  9

Section 5 (a) (5)      Summary of instances where information was refused.           5


Section 5 (a) (6)      List of audit reports by subject matter, showing dollar       6
                       value of questioned costs and funds put to better use.


Section 5 (a) (7)      Summary of each particularly significant report.            2 – 3,
                                                                                     6

Section 5 (a) (8)      Statistical table showing number of reports and dollar       12
                       value of questioned costs.

Section 5 (a) (9)      Statistical table showing number of reports and dollar       13
                       value of recommendations that funds be put to better
                       use.

Section 5 (a) (10)     Summary of each audit issued before this reporting          None
                       period for which no management decision was made by
                       end of reporting period.

Section 5 (a) (11)     Significant revised management decisions.                   None

Section 5 (a) (12)     Significant management decisions with which the               5
                       Inspector General disagrees.


MARCH 2003                                                                           PAGE 11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                           PENSION BENEFIT GUARANTY CORPORATION




                        REPORTS ISSUED WITH QUESTIONED COSTS*
                             For The Six-month Period Ending
                                     MARCH 31, 2003


                                                            NUMBER
                                                                OF           QUESTIONED        UNSUPPORTED
                                                            REPORTS            COSTS              COSTS

 A.   For which no management decision has
      been made by the commencement of the
      reporting period                                          0                 -0-                -0-

 B.   Which were issued during the reporting
      period                                                    0                 -0-                -0-

      Subtotal ( Add A & B)                                     0                 -0-                -0-

 C.   For which a management decision was
      made during the reporting period                          0                 -0-                -0-

      (i)       dollar value of disallowed costs                0                 -0-                -0-

      (ii)      dollar value of costs not
                disallowed                                      0                 -0-               - 0-

 D.   For which no management decision has
      been made by the end of the reporting
      period                                                    0                 -0-                -0-

 E.   Reports for which no management
      decision was made within six months of
      issuance                                                  0                 -0-                -0-




* This statistical information is required by section 5(a)(8) of the Inspector General Act of 1978, as amended.

________________________________________________________________________________________________
MARCH 2003                                                                             PAGE 12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                         PENSION BENEFIT GUARANTY CORPORATION




                         REPORTS ISSUED WITH RECOMMENDATIONS
                            THAT FUNDS BE PUT TO BETTER USE*
                              For The Six-month Period Ending
                                      MARCH 31, 2003


                                                                               NUMBER
                                                                                  OF              DOLLAR
                                                                               REPORTS            VALUE

 A.   For which no management decision has been made by the
      commencement of the reporting period                                         0                 -0-

 B.   Which were issued during the reporting period                                0                 -0-

      Subtotal ( Add A & B)                                                        0                 -0-

 C.   For which a management decision was made during the
      reporting period                                                             0                 -0-

      (i)         dollar value of recommendations that were agreed
                  to by management                                                 0                 -0-

             --   based on proposed management action                              0                 -0-

             --   based on proposed legislative action                             0                 -0-

      (ii)        dollar value of recommendations that were not
                  agreed to by management                                          0                 -0-

 D.   For which no management decision has been made by the
      end of the reporting period                                                  0                 -0-

      Reports for which no management decision was made
      within six months of issuance                                                0                 -0-




* This statistical information is required by section 5(a)(9) of the Inspector General Act of 1978, as amended.

________________________________________________________________________________________________
MARCH 2003                                                                             PAGE 13
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                              PENSION BENEFIT GUARANTY CORPORATION


                                                          OPEN RECOMMENDATIONS
                                                        For The Six-month Period Ending
                                                                MARCH 31, 2003

Report                          Report          Date       Recommendation                             Recommendation
                                Number         Issued          Number


Evaluation of the Premium       97-8/         8/26/97         IRMD-100        Complete the questionnaires contained in the PAS documentation
Accounting System               23097                                         and assess the results for adherence to relevant circulars and
Computer Platform                                                             guidelines.

                                                              IRMD-101        Conduct periodic tests of the PAS Disaster Recovery Plan,
                                                                              document the test results, and assign responsibility for updating
                                                                              the plan as needed.

                                                              IRMD-121        Review the use of external programs providing additional edits and
                                                                              validations and incorporate them into the PAS production
                                                                              environment, as appropriate.

Audit of the Pension Benefit    98-3/         3/23/98         FOD-268         Complete its efforts to integrate its financial management systems,
Guaranty Corporation’s         23126-2                                        in accordance with OMB Circular A-127 and its Five-Year
Fiscal Years 1997 and 1996                                                    Financial Management Systems Plan.
Financial Statements

Improvements Are Needed         99-2/         3/2/99           IOD-158        Establish timeliness performance measures for principal activities
To Achieve Better Efficiency   23128-1                                        of the benefit determination process.
And Effectiveness In
PBGC’s Benefit
Determination Process
                                                               IOD-160        Take reasonable steps to identify whether there are participants
                                                                              who have not received an IDL.

                                                               IOD-164        Review actuarial peer reviews, controlled group and net worth
                                                                              audits, and the reconciliation of plan assets to determine whether
                                                                              redundant activities exist.

                                                               IOD-165        Determine whether redundant activities identified should be
                                                                              eliminated.

                                                               IOD-168        Enforce compliance with time accounting requirements
                                                                              established in IOD’s Procedures Manual.


_________________________________________________________________________________________________________________________________________________
MARCH 2003                                                                                                                              PAGE 14
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                               PENSION BENEFIT GUARANTY CORPORATION


                                                          OPEN RECOMMENDATIONS
                                                        For The Six-month Period Ending
                                                                MARCH 31, 2003

Report                          Report          Date       Recommendation                              Recommendation
                                Number         Issued          Number

Audit of the Pension Benefit    99-7/         3/3/99          FASD-112        Conduct a Business Impact Analysis to validate critical workloads.
Guaranty Corporation’s         23132-2                                        In addition, recovery priorities should be established and
Fiscal Years 1998 and 1997                                                    documented for mission critical systems. IRMD can serve as the
Financial Statements                                                          central point for developing these priorities and help facilitate and
                                                                              coordinate the efforts required to complete this process.

                                                              FASD-114        Develop detailed procedures for the recovery of PBGC operations.

                                                              FASD-115        Test the contingency/disaster recovery procedures on a regular
                                                                              basis, using sufficiently detailed test plans and scenarios. Review
                                                                              and incorporate test results, as appropriate, in the
                                                                              contingency/disaster recovery plan in a timely manner.

Fiscal Year 1998 Financial      99-8/          9/23/99        FOD-274         Enhance financial reporting controls surrounding PAS to improve
Statement Audit-               23132-3                                        the system’s ability to accurately track premiums receivable on a
Management Report                                                             plan basis.

                                                              FOD-275         Analyze the existing year-end processes surrounding PAS and
                                                                              identify improvements that will reduce the necessity of manual
                                                                              adjustments, validity testing, and reclassifications at year-end.

                                                               IOD-175        Delete invalid duplicate participant records in PRISM and
                                                                              implement necessary controls to prevent the creation of duplicate
                                                                              records in future processing.

                                                               IOD-181        Establish a formal reconciliation process for the plans assumed
                                                                              from the prior paying agents whereby reconciliations are reviewed
                                                                              and approved by an appropriate level of management.



Audit of the Pension Benefit   2000-7/         3/31/00        IRMD-118        Finalize accreditation and certification of systems.
Guaranty Corporation’s         23138-2
Fiscal Years 1999 and 1998
Financial Statements


_________________________________________________________________________________________________________________________________________________
MARCH 2003                                                                                                                              PAGE 15
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                               PENSION BENEFIT GUARANTY CORPORATION


                                                          OPEN RECOMMENDATIONS
                                                        For The Six-month Period Ending
                                                                MARCH 31, 2003

Report                          Report          Date       Recommendation                              Recommendation
                                Number         Issued          Number

Fiscal Year 1999 Financial     2000-8/         8/21/00        FOD-279         Assign responsibility to the General Accounting Branch to
Statement Audit-               23138-3                                        reconcile monthly the PD records and FARS records, and
Management Letter                                                             document supervisory review of the monthly reconciliations..

Audit of the Pension Benefit   2001-9/        3/29/01          IOD-197        Reassess use of the Authorizer Administration inclusion function.
Guaranty Corporation’s         23149-2                                        This functionality should be limited to special usage, logged and
Fiscal Years 2000 and 1999                                                    reviewed by PBGC management.
Financial Statements

Audit of the Pension Benefit   2002-3/        3/29/02         FASD-117        Ensure that each department document specific procedures such
Guaranty Corporation’s         23157-2                                        as manual/peripheral processing procedures for restoring
Fiscal Years 2001 and 2000                                                    applications and operations as part of its COOP, including specific
Financial Statements                                                          references to critical data files required.

                                                              FASD-118        Include requirements for the use of alternate facilities in each of
                                                                              the COOP plans, if needed, as well as instructions for staff and
                                                                              contractors as to their role in the recovery process and where they
                                                                              would perform their duties.

Fiscal Year 2001 Financial     2002-6/       08/29/02           BD-2          Develop a system to specifically identify limitation administrative
Statement Audit-               23157-5                                        expenses and develop fiscal year budgets using the specific
Management Letter                                                             identification methods.

                                                                BD-3          Provide documentation to support the accuracy of the allocation
                                                                              ratio and the propriety of designating administrative expenses as
                                                                              not being subject to limitation as defined in the appropriation law.

                                                               IOD-204        Amend PRISM Trial Balance Reconciliation review procedures in
                                                                              TP 11.1 to require that the reconciliations be imaged in IPS after
                                                                              supervisory review.

                                                               IOD-207        Amend TP 30.1 to include deadlines for completion of the monthly
                                                                              reconciliations and to require supervisory review and approval.
                                                               IOD-208        Implement monthly procedures to submit a list of inactive
                                                                              participants to the PRISM team before the month-end cut-off to
                                                                              update the pay status to inactive and to verify that the submitted
                                                                              changes were made.
_________________________________________________________________________________________________________________________________________________
MARCH 2003                                                                                                                                PAGE 16
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                              PENSION BENEFIT GUARANTY CORPORATION


                                                          OPEN RECOMMENDATIONS
                                                        For The Six-month Period Ending
                                                                MARCH 31, 2003

Report                          Report          Date       Recommendation                             Recommendation
                                Number         Issued          Number


                                                               IOD-209        Modify TP 12.7 and 12.8 to require that the audit working papers
                                                                              be imaged, including the sample selected, the database associated
                                                                              with the sample, all sources used to test the sample and the errors
                                                                              found in the sample.

                                                              FOD-289         Strengthen compliance with premium refund timeliness goals.

                                                                CTO-1         Develop and document specific policies and procedures to perform
                                                                              risk assessments of business systems as required by OMB.

                                                                CTO-2         Implement the established policies and procedures for completing
                                                                              risk assessments to comply with OMB requirements.

                                                              IRMD-131        Improve the information security structure to provide for enhanced
                                                                              responsibility and accountability.

                                                              IRMD-132        Develop and document policies and procedures for the
                                                                              performance of periodic re-certifications of PBGC systems’ user
                                                                              accounts.

                                                              IRMD-133        Implement periodic re-certifications of PBGC systems’ user
                                                                              accounts.

                                                              IRMD-134        Establish monitoring procedures to enforce compliance with
                                                                              existing change control policies, procedures, and standards.

                                                               IOD-210        For cases with data sources more than five years old, implement a
                                                                              procedure to determine whether 1) an updated data source would
                                                                              provide a more accurate estimate of the NRFFA liability and 2) a
                                                                              valuation is available or can be completed without a significant
                                                                              burden on resources.

                                                              FOD-291         Revise the Controller Division Consolidated Procedures Manual to
                                                                              require that the promissory notes and financial assistance
                                                                              disbursement documents are timely placed in the General
                                                                              Accounting Branch vault, and sign-out logs are periodically
_________________________________________________________________________________________________________________________________________________
MARCH 2003                                                                                                                              PAGE 17
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                                              PENSION BENEFIT GUARANTY CORPORATION


                                                          OPEN RECOMMENDATIONS
                                                        For The Six-month Period Ending
                                                                MARCH 31, 2003

Report                          Report          Date       Recommendation                              Recommendation
                                Number         Issued          Number

                                                                              reviewed to ensure documents are returned timely.

                                                              FOD-293         Actively monitor derivatives activity by monitoring SSB’s
                                                                              accounting and reporting activities.

                                                              FOD-294         Reconcile SSB and the investment managers’ derivative inventories
                                                                              and positions monthly.

                                                              FOD-295         PBGC’s Board of Directors should review and approve PBGC’s
                                                                              investment policy once every two years




_________________________________________________________________________________________________________________________________________________
MARCH 2003                                                                                                                              PAGE 18
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY
The following defines the terms used in this report.


Questioned Cost         A cost the OIG has questioned because of an alleged
                        violation of law, regulations, contract, grant, cooperative
                        agreement, or other agreement or document governing the
                        expenditure of funds; such cost is not supported by
                        adequate documentation; or the expenditure of funds for the
                        intended purpose is unnecessary or unreasonable.

Unsupported Cost        A cost the OIG has questioned because of a lack of adequate
                        documentation at time of the audit.

Disallowed Cost         A questioned cost that management, in a management
                        decision, has sustained or agreed should not be charged to
                        the government.

Funds To Be Put To Funds the OIG has identified in an audit recommendation
Better Use         that could be used more efficiently by reducing outlays,
                   deobligating program or operational funds, avoiding
                   unnecessary expenditures, or taking other efficiency
                   measures.

Management              Management's evaluation of audit findings and
Decision                recommendations and issuance of a final decision
                        concerning management's response to such findings and
                        recommendations.

Final Action            The completion of all management actions -- that are
                        described in a management decision -- with respect to audit
                        findings and recommendations. If management concluded
                        no actions were necessary, final action occurs when a
                        management decision is issued.


Misconduct              Action of employees or contractors that violates law, rules,
                        or regulations for which corrective action is warranted.




________________________________________________________________________________________________
MARCH 2003                                                                             PAGE 19
IF YOU WANT TO REPORT OR DISCUSS CONFIDENTIALLY
ANY INSTANCE OF MISCONDUCT, FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT, PLEASE CONTACT THE OFFICE OF
INSPECTOR GENERAL.


You can telephone:

         The Inspector General's HOTLINE

                    1-800-303-9737


Or you can write:


      Pension Benefit Guaranty Corporation
           Office of Inspector General
                 P.O. Box 34177
         Washington, D.C. 20043-4177
